<html>
<title> - AN OVERVIEW OF THE NATIONAL SCIENCE FOUNDATION BUDGET PROPOSAL FOR FISCAL YEAR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                             AN OVERVIEW OF
                    THE NATIONAL SCIENCE FOUNDATION
                  BUDGET PROPOSAL FOR FISCAL YEAR 2019

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2018

                               __________

                           Serial No. 115-53

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov

              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-780PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9d8a95ba998f898e929f968ad4999597d4">[email&#160;protected]</a>              
              
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                            
                            
                            C O N T E N T S

                             March 15, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     9
    Written Statement............................................    11

                               Witnesses:

Dr. France Cordova, Director, National Science Foundation
    Oral Statement...............................................    13
    Written Statement............................................    16

Dr. Maria T. Zuber, Chair, National Science Board
    Oral Statement...............................................    30
    Written Statement............................................    32

Discussion.......................................................    40


             Appendix I: Answers to Post-Hearing Questions

Dr. France Cordova, Director, National Science Foundation........    70

Dr. Maria T. Zuber, Chair, National Science Board................   127

            Appendix II: Additional Material for the Record

Prepared statement submitted by Representative Daniel Lipinski, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   130

 
                             AN OVERVIEW OF
                    THE NATIONAL SCIENCE FOUNDATION
                  BUDGET PROPOSAL FOR FISCAL YEAR 2019

                              ----------                              


                        THURSDAY, MARCH 15, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:06 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. Everybody got quiet very suddenly, but 
before that, this was a very happy crowd.
    The Committee on Science, Space, and Technology will come 
to order. Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Good morning, and welcome to today's hearing entitled ``An 
Overview of the National Science Foundation Budget Proposal for 
Fiscal Year 2019.'' And I'll recognize myself for an opening 
statement.
    Today, we welcome Dr. France Cordova, the Director of the 
National Science Foundation, and Dr. Maria Zuber, Chair of the 
National Science Board, to testify about the Administration's 
budget request and funding priorities for the National Science 
Foundation in fiscal year 2019.
    Before its creation in 1950, the NSF's mission has been to 
promote fundamental scientific discovery. The NSF is the only 
federal agency that supports basic research across all 
scientific fields, including research in areas like national 
security, energy, quantum technology, biotechnology, STEM 
education and cybersecurity. Through competitive grants, the 
NSF funds more than 360,000 scientists, engineers, and students 
across the country. This helps make the United States a world 
leader in knowledge and innovation.
    The Committee finished the last Congress by completing work 
on the American Innovation and Competitiveness Act, authorizing 
some of the NSF's activities, including work on STEM education 
and high-performance computing. The law made permanent 
transparency and accountability policies that require the NSF 
to describe the research projects it funds in nontechnical 
terms. The law also improved the NSF grantmaking process, 
affirming that research funded through the merit review 
selection process must be in the national interest.
    I want to recognize Dr. Cordova for the steps the NSF has 
taken to improve accountability over the last three years and 
acknowledge Dr. Zuber's work on behalf of the National Science 
Board as well.
    I have to say that sometimes in the past I have been 
critical of the NSF for funding too many projects that seem 
marginal or frivolous. When the NSF spent $700,000 on a Climate 
Change Musical or $1.5 million to study pasture management in 
Mongolia, it reduced investments in projects that could yield 
groundbreaking new knowledge and discoveries.
    I believe there has certainly been improvement, but 
challenges remain. I am concerned that there are too many 
projects being funded in the social, behavioral, and economic 
sciences that are not worthy of taxpayers' dollars. For 
example, in the past year the NSF has spent $310,000 to study 
Congressional ``Dear Colleague'' letters, $450,000 to study why 
there is no single English word for ``light blue,'' $330,000 to 
study cell phone use by Tanzanian women, $138,000 to study 
monkey responses to ``inequity and violated expectation,'' 
$217,000 to document a language spoken in two villages of 
northern Pakistan, and $75,000 to ``produce a description of 
Maku,'' an extinct Amazon language.
    Social-behavioral science can help solve some complex 
problems that touch several areas of science. For instance, 
protecting computers and computer networks from hackers 
requires research in both computer and behavioral science. But 
when only one out of five requests for grants is being funded, 
there must be priorities. We cannot afford to misspend another 
dollar on low-priority or frivolous activities. Simply put, the 
NSF should fund useful research over the useless.
    China now has the world's fastest supercomputer and has 
just passed the United States for the first time to lead the 
world in the number and total performance of supercomputers. 
China is also making rapid progress in artificial intelligence, 
quantum computing, human genome editing, and other crucial 
areas of science and technology. Unfortunately, as China leaps 
forward, the United States is slowing down investment in key 
areas of basic research like physics and computing. This will 
not change unless taxpayers' money is better invested.
    I also am concerned about whether or not the NSF is 
developing its STEM workforce programs to meet the needs of our 
economy. The United States continues to lag significantly 
behind China and the European Union in science and engineering 
bachelor's degrees, with China producing more than twice the 
number of STEM undergraduates. In the physical and biological 
sciences, China produces four times more undergraduates in 
those fields than the United States.
    The NSF plays a critical role in helping educate and train 
the next generation of STEM workers. We need to invest in young 
people who will go into fields where there is a national need 
and good-paying jobs.
    Now that there is a two-year budget agreement in place, we 
have an opportunity to reauthorize the science agencies under 
our Committee's jurisdiction, including the NSF, to rebalance 
priorities and ensure that our nation's science agencies are on 
a trajectory to keep America at the forefront of scientific 
knowledge and discovery.
    This Committee has demonstrated that there is broad support 
for basic and fundamental research and STEM education. Twenty 
of the twenty-two bills the Science, Space, and Technology 
Committee has brought to the House Floor this Congress have 
been bipartisan pieces of legislation. We are committed to 
maintaining America's leadership in science, thereby ensuring 
future economic prosperity.
    [The prepared statement of Chairman Smith follows:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, Ms. Johnson, is 
recognized for her opening statement.
    Ms. Johnson. Thank you very much, Chairman Smith, and good 
morning. I appreciate you holding this hearing, and I want to 
welcome Dr. Cordova and Dr. Zuber. I'm pleased that we have 
both of you here this morning to help us understand the fiscal 
2019 budget request for the National Science Foundation and the 
potential impact of this request on NSF's ability to help 
support U.S. leadership in science.
    Funding for the National Science Foundation peaked in 2010 
at $7.7 billion. In the years since then, the budget has 
stagnated at or below $7.5 billion. This is the case despite 
the Obama Administration requesting increases each year. In 
stark contrast, last year, the Trump Administration proposed to 
cut NSF by 11 percent, and this year, until Congress passed the 
budget agreement, the proposed cut was closer to 30 percent. 
This Administration has demonstrated time and again how little 
they value science.
    Given these trends, most of us are relieved when the NSF 
budget remains flat rather than cut. However, flat is a decline 
in real dollars, and it represents a terribly low standard for 
which to judge our nation's standing in science and technology. 
We will hear in Dr. Zuber's testimony how other countries are 
doubling down on their investments in R&D while we're cutting.
    Having said that, I applaud Dr. Cordova and your team at 
NSF for being as bold and forward-looking as you could be, 
given the constraints imposed upon you by the budget of the 
White House. I will highlight just a few items of interest or 
concern that I hope we can discuss further in the hearing.
    Advancing science to solve our national and global 
challenges increasingly depends on teams of scientists from 
various disciplines coming together in what is now commonly 
known as convergent research. However, for generations, 
universities and the National Science Foundation itself have 
been organized around disciplines. While advances in these core 
disciplines do and must continue, this organizational structure 
has created stovepipes and inhibited convergent research.
    In fiscal year 2019 budget request, NSF takes a big leap to 
transcend those traditional boundaries through dedicated 
funding for its 10 Big Ideas. In that respect, this is an 
exciting budget proposal. However, having been forced into a 
zero-sum choice, the agency had to make cuts elsewhere, namely 
to the core research programs and to education and training 
programs at all levels. These tradeoffs merit further 
discussion before we can be comfortable that the benefits 
outweigh the potential harm.
    This budget also represents the first time that the agency 
is singling out one of its research directorates for a 
disproportionate cut while every other directorate is nearly 
flat. The Social, Behavioral, and Economic Sciences 
Directorate, or the SBE, would be cut by 11 percent. I do not 
doubt this steep cut was dictated from the White House. 
However, this ongoing devaluing of the role of SBE in meeting 
our national challenges could have damaging consequences. I 
look forward to hearing from Dr. Cordova and Dr. Zuber on what 
steps NSF will take to mitigate this harm.
    I'm pleased to see the Antarctic Infrastructure 
Modernization for Science, or AIMS, project in the request, 
along with a proposal for a midscale research infrastructure 
program. I look forward to hearing more about both of these 
proposals.
    Finally, as I alluded to earlier, while there are a few 
bright spots in education and broadening participation funding, 
I am concerned about the overall cuts to education in this 
budget. Education and training programs across research 
account--would be cut by nearly 25 percent. Proven programs 
such as Noyce Teacher Scholarship Program, research experiences 
for undergraduates, and the graduate research fellowships would 
all receive steep cuts. NSF has a dual mission of research and 
education. We cannot afford to back away from our commitment to 
either one.
    I thank you, Dr. Cordova and Dr. Zuber, for being here this 
morning to help us examine these issues and concerns in more 
detail.
    I thank you, Mr. Chairman, for holding this important 
hearing, and I yield back.
    [The prepared statement of Ms. Johnson follows:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Ms. Johnson.
    Our first witness today is Dr. France Cordova, Director of 
the National Science Foundation. Dr. Cordova was sworn in as 
Director of the NSF in March 2014. She previously served as 
President of Purdue University from 2007 to 2012. From 1993 to 
1996, Dr. Cordova served as the Chief Scientist at NASA, and 
she is the recipient of NASA's highest honor, the Distinguished 
Service Medal.
    Dr. Cordova has a Bachelor of Arts from Stanford University 
and a Ph.D. in physics from the California Institute of 
Technology.
    Joining Director Cordova today to assist in answering 
technical questions is Dr. Joan Ferrini-Mundy, Acting Chief 
Operating Officer of the National Science Foundation. 
Previously, she led the NSF Education and Human Resources 
Directorate and co-chaired the White House National Science and 
Technology Council's Federal Coordination and STEM Education 
Task Force. Prior to the NSF, she was a Distinguished Professor 
of Mathematics Education at Michigan State University. Dr. 
Derrini-Mundi holds a Ph.D. in mathematics education from the 
University of New Hampshire.
    Our second witness today is Dr. Maria Zuber, Chair of the 
National Science Board. In 2013, Dr. Zuber was appointed Vice 
President for Research at the Massachusetts Institute of 
Technology where she oversees more than a dozen research 
laboratories and centers. Dr. Zuber was awarded the NASA 
Distinguished Public Service Medal in 2004, and in 2008, she 
was named to the U.S. News' list of ``America's Best Leaders.''
    She received a Bachelor of Arts in astronomy from the 
University of Pennsylvania, as well as a Master of Science and 
Ph.D. both in geophysics from Brown University.
    We welcome you all and look forward to your testimony. And 
Dr. Cordova, if you'll begin.

                TESTIMONY OF DR. FRANCE CORDOVA,

             DIRECTOR, NATIONAL SCIENCE FOUNDATION

    Dr. Cordova. Thank you, Chairman Smith, Ranking Member 
Johnson, and Members of the Committee. I'm pleased to be here 
today to discuss the President's fiscal year 2019 budget 
request for the National Science Foundation.
    The request is $7.47 billion, level with the fiscal year 
2017 appropriation. This level of funding reflects the 
Administration's commitment to NSF's role in strengthening the 
Nation's economy, national security, and global leadership in 
sciences and engineering.
    NSF funds basic research that advances and sustains 
American preeminence in the innovation economy. NSF accounts 
for approximately 27 percent of the total federal budget for 
basic research conducted at U.S. colleges and universities. For 
computer science, that number is 83 percent. For biology, 69 
percent, for engineering, 46 percent. These investments produce 
invaluable benefits to our nation and the world.
    Economists have noted that over 50 percent of America's 
economic growth over the past 50 years is attributable to 
technological innovation. Much of it is the fruit of the 
uniquely American research and innovation ecosystem among 
academia, industry, and government where ideas, artifacts, and 
people flow among these sectors. In information technology, 
this is embodied in this tire-tracks diagram. This 
extraordinary ecosystem has given rise to multibillion-dollar 
industries, and it all begins, as the diagram shows, with 
investment in fundamental long-term research often made with 
federal dollars and often made many years, even decades before 
it evolved into billion-dollar businesses.
    MRI technology, gene editing, barcode technology, Google, 
3-D printing, these are all areas NSF invested in early that 
have transformed our lives. Today, NSF is at the forefront of 
research in big data, quantum computing, artificial 
intelligence, cybersecurity, and robotics areas that will power 
the future economy.
    Our fiscal year 2019 request also incorporates new and 
innovative ways of doing business that will position NSF at the 
leading edge of discovery. First, NSF will invest in our 10 Big 
Ideas. The Big Ideas represent unique opportunities to position 
our nation at the frontiers, indeed to define the frontiers of 
global science and engineering leadership. An investment of $30 
million is requested for each of the six research-focused Big 
Ideas. Four other Big Ideas such as midscale facilities and the 
INCLUDES initiative focused on new approaches to increase 
opportunities for discovery and expand the STEM community.
    Our success also requires innovative approaches to 
leveraging resources over all fields of science. In fiscal year 
2019, NSF will initiate two convergence accelerators, new 
centers that will converge around important national challenges 
requiring interdisciplinary expertise. The accelerators will 
streamline operations and collaborations, focusing on results 
and outcomes that can be achieved quickly.
    An investment of $60 million will support two convergence 
accelerators for two of the Big Ideas: Harnessing the Data 
Revolution for 21st-Century Science and Engineering and the 
Future of Work at the Human-Technology Frontier. These Big 
Ideas were chosen because of the readiness for convergent and 
translational research.
    We expect to catalyze an additional $40 million in 
investment by external partners, including the private sector, 
other federal agencies, and international funders.
    Equally important to our sustained global leadership in 
science and engineering are investments in STEM education. At 
NSF our education activities are integrated with research. In 
fiscal year 2019, NSF will continue to invest in CyberCorps, 
Computer Science for All, the Advanced Technological Education 
program, and other initiatives that support teachers, students, 
and researchers from K-2 to lifelong learning environments. We 
will not have the discoveries of tomorrow without a skilled 
workforce prepared for tomorrow.
    Mr. Chairman, I had the honor of attending the 2017 Nobel 
Prize awards ceremony in Stockholm, Sweden. I was there to 
celebrate scientists in the fields of physics, economics, 
biology, and chemistry. All eight U.S. Nobelists were at some 
point in their careers supported by NSF. Three of them were 
honored for the LIGO discovery of gravitational waves, a 
discovery only made possible by 40 years of NSF support. In 
fact, NSF-funded researchers account for 231 Nobel Prizes, 
dating back to 1955. This is but one powerful example of why 
Congress' support for NSF and fundamental basic research is so 
vital.
    Another is in the tire-tracks diagram, which exhibits some 
of NSF's contributions to the growth of new robust businesses. 
This Committee has played an important role in these successes. 
Through the AICA, it continues to make our agency stronger in 
its processes to deliver the best to the American people. Thank 
you for your continued support of NSF.
    [The prepared statement of Dr. Cordova follows:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Cordova. Do you happen to 
have a hard copy of the PowerPoint that was just up on the 
screen? And if so, I'd like to make copies for members maybe 
even before the questions.
    Dr. Cordova. Yes.
    Chairman Smith. Okay. If we could----
    Dr. Cordova. If you have someone I can hand it to----
    Chairman Smith. Okay.----
    Dr. Cordova. --I would be happy to do that.
    Chairman Smith. That would be great.
    Dr. Cordova. Thank you.
    Chairman Smith. And, Dr. Zuber?

                TESTIMONY OF DR. MARIA T. ZUBER,

                 CHAIR, NATIONAL SCIENCE BOARD

    Dr. Zuber. Chairman Smith, Ranking Member Johnson, and 
Members of the Committee, I appreciate the opportunity to speak 
with you about the President's fiscal year 2019 budget request 
for the National Science Foundation. ``An investment in 
knowledge always pays the best interest,'' declared Benjamin 
Franklin, our nation's founding innovator. Since World War II, 
the United States has led the world in research, transforming 
our lives, driving economic growth, and underpinning national 
security. Sustained bipartisan commitment to investing in 
fundamental research helped establish and maintain U.S. 
leadership in science and technology.
    But the global science and technology landscape is rapidly 
changing. Other nations are upping their game. For the first 
time in over a half-century, our S&T leadership is being 
challenged. According to the Board's 2018 Science and 
Engineering Indicators Report, China's spending on R&D has 
grown by an average of 18 percent since the year 2000, while 
ours has grown by only four percent. Since 2000, China has 
tripled the number of STEM bachelor's degree awardees, and 
between 2013 and 2016, just three years, venture capital in 
China climbed from 5 to 27 percent of the global share, the 
fastest increase of any economy.
    Although these trends are not new, in some cutting-edge 
areas of research, the trajectory is more pronounced. Within 
the last year, China erased the U.S. advantage in 
supercomputing, claiming more than 200 of the fastest 500 
supercomputers to our 143. Over the next five years, China 
plans to invest 100 times more in artificial intelligence than 
the United States did in 2016. At the same time, total federal 
R&D funding has been declining from $127 billion in 2011 to 
$120 billion in 2015. Federal R&D spending as a share of GDP is 
now the lowest it has been since 1953. These choices have 
concrete consequences. If current trends continue, China will 
surpass the United States in total R&D expenditures sometime 
this year.
    Despite these ominous trends, the Board is encouraged by 
Congress' agreement on a budgetary framework and the President 
working within those caps to prioritize NSF's mission of 
discovery in research and the national interest. With the 
requested level of funding in fiscal year 2019, NSF will 
support basic research across all fields of science and 
engineering that create knowledge, while allowing investment in 
priority areas.
    The Board recognizes the fiscal challenge with--that 
Congress wrestles. In such difficult times, there can be a 
tendency to play it safe, but as America's innovation agency, 
NSF is not going to play it safe. First, the agency is 
embracing our nation's entrepreneurial spirit in trying 
something new. As the Director has just described, NSF proposes 
to break out of academic silos by investing in new elements to 
promote cutting-edge interdisciplinary research at the 
frontiers of science and technology: the Big Ideas and 
convergence accelerators. Much transformative research happens 
at the intersection of scientific fields. The Board believes 
this proactive approach is essential if NSF is to succeed in 
its mission to advance the frontiers of science.
    Next, our nation's ability to discover, invent, and 
innovate relies on our ability to leverage America's greatest 
competitive advantage: our people. To ensure that Americans are 
equipped to thrive in a globally competitive knowledge economy, 
NSF will work with Congress, the Administration, business 
leaders, educators, and others to create to create a STEM-
capable workforce. Our workforce of the future must leverage 
the hard work, creativity, and ingenuity of women and men of 
all ages, education levels, and backgrounds. NSF will continue 
to build this workforce through initiatives such as INCLUDES, 
ATE, and CyberCorps.
    Finally, NSF is committed to innovating and improving our 
internal processes. The Board takes its responsibility to 
taxpayers seriously. We are now taking a fresh look at the 
merit review report, working with NSF to advance formal risk-
thinking and strategic planning and priority-setting, and 
strengthening our oversight of major research facilities.
    And I would be remiss if I did not thank you, Chairman 
Smith, for your leadership and holding us to the highest 
standards of accountability and transparency.
    Investing in discovery research now will give us the keys 
to meeting unpredictable national security, economic, and 
health challenges of tomorrow. As President Trump warned, 
losing our innovation and technological edge would have far-
reaching negative implications for American prosperity and 
power. We need a renewed and committed strategy to hold onto 
this key national asset.
    But in challenge there is also opportunity. If we 
capitalize on the strong foundations of our innovation 
ecosystem and the talents of our people, we can pursue grand 
visions, enable revolutionary ideas, and reap the unexpected 
advances that emerge from dreaming boldly and fearlessly to 
pursue fundamental science.
    Thank you and I look forward to your questions.
    [The prepared statement of Dr. Zuber follows:]
   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Zuber.
    I'll recognize myself for questions and address the first 
one to Dr. Cordova.
    Dr. Cordova, last year, I think you had 40,000 grant 
proposals that were not funded. You clearly have an abundance 
of projects to choose from. And as I mentioned in my opening 
statement, you only approve about one out of every five 
proposals. How do you assure us, how do you assure the American 
people, that only the best projects are being funded? I 
mentioned in my opening statement a half-dozen that I thought 
were questionable. It seems to me that none of them should have 
been funded. I don't see the justification myself. But how do 
you screen proposals? How do you ensure that they are in the 
national interest?
    Dr. Cordova. As Dr. Zuber mentioned, our merit review 
process is really the answer to your question, Chairman Smith. 
Every one of the proposals that we receive--and we receive 
approximately 50,000 a year--go through our world-lauded merit 
review process--which many countries of the world have copied 
because it is a process of very high integrity.
    I want to address just for a second your specific question 
on particular proposals. I think our very first meeting a week 
after I took this job--so that would be four years ago--was 
about such proposals. And I took this very personally to 
examine how these proposals were approved and personally looked 
at the individual proposals. Then, we had a team of people look 
at the whole merit review process that was associated with each 
one. I was convinced in the end--a process that I had to do 
myself--I was convinced in the end that each one met our very 
high standards of intellectual merit and broader impact.
    Chairman Smith. I understand the merit review process. 
Would you get--let me just pick one out. Would you get back to 
me as to why the merit review process found $450,000 to study 
why there is no single English word for ``light blue?'' Will 
you get back to me on why that was in the national interest, 
for example?
    Dr. Cordova. Yes, of course. For each one of the projects 
that's been questioned, we have written a report. They're all 
online.
    Chairman Smith. Okay.
    Dr. Cordova. I do not know about that particular one, but 
of course we will get back to you.
    Chairman Smith. Okay. I appreciate that.
    Dr. Zuber, we have talked about this before, but China is 
reportedly investing $10 billion in quantum research, far more 
than the United States. How can the United States stay 
competitive, and isn't that a threat and a danger for China to 
keep outspending us in so many of these research areas?
    Dr. Zuber. Well, quantum is of course incredibly important 
for national security but also on the financial system as well 
since cybersecurity affects financial transactions and actually 
personal transactions, the energy grid, et cetera. So there are 
a variety of places in the U.S. government that invest in 
cybersecurity and also the private sector as well, and we need 
some communication there.
    But I think a key thing that we have to have is we need 
coordination among--of--among different agencies. Some are the 
on the classified side, some are on the unclassified side----
    Chairman Smith. Right.
    Dr. Zuber. --but the basic research, you know, is done on 
the unclassified side, and there needs to be some crosstalk in 
terms of what is actually needed early on. And then that could 
be communicated and then, you know, the classified side can 
take it over.
    Another thing that I would say is that we need to be 
thinking about our education system as well and evolving it, so 
we--you know, how many programs have quantum engineering? Okay. 
MIT doesn't even have quantum engineering as a discipline. And 
we need to be----
    Chairman Smith. Can't you----
    Dr. Zuber. --thinking about----
    Chairman Smith. Can't you change that?
    Dr. Zuber. --although--we certainly are teaching those 
sorts of things, but we don't have a specific program on it----
    Chairman Smith. Okay.
    Dr. Zuber. --and I think research universities ought to be 
thinking about developing those programs----
    Chairman Smith. Okay.
    Dr. Zuber. --to train the next generation of researchers 
that are needed to take on these problems.
    Chairman Smith. Let me go to my next question. I assume 
you'll have some influence in trying to persuade MIT to have a 
program in quantum engineering, right?
    Dr. Zuber. I think I might be able to.
    Chairman Smith. Okay, good. My last question is this, the 
FBI recently shared concerns that countries like China are 
exploiting U.S. academic institutions and are taking advantage 
of the federal research funding. They're also trying to 
indoctrinate students. Do you share the FBI's concerns?
    Dr. Zuber. There certainly is some legitimacy to those 
concerns. Certainly, the United States needs to interact with 
China. They're a global power. There are things that it makes 
sense for us to collaborate on. It makes sense for us to 
attract talented Chinese students. We ought to work hard at 
keeping the best people in the United States after they get 
their degrees. But we ought to--we need to do a much better job 
in terms of training those students and actually our professors 
about issues of intellectual property so that we can respect 
the inventions and achievements of our people in the 
universities.
    Chairman Smith. Okay. Thank you, Dr. Zuber.
    I will go to the gentlewoman from Oregon, Ms. Bonamici, for 
questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you Dr. Cordova, Dr. Zuber, and Dr.--is it Ferrini-Mundy? Thank 
you all for joining us today. And thank you, Chairman Smith and 
Ranking Member Johnson.
    I just wanted to mention I know, Chairman Smith, in your 
opening you mentioned a couple of NSF-funded projects that you 
thought were questionable. I hope this year you can attend with 
us the Golden Goose Awards. The Golden Goose Awards are 
bipartisan recognition of scientists whose federally funded 
basic research has led to innovations with a significant impact 
on society, and it's often research with odd-sounding titles or 
names. So I hope you can join us for that because it's a really 
inspiring event.
    This is a really important conversation we're having. We do 
want the United States to continue to be a leader, but 
unfortunately, this budget is, I believe, about the ninth year 
of flat funding. If we want to continue to be the leader, we 
should be increasing investments, not decreasing investments in 
the National Science Foundation.
    Dr. Cordova, Oregon State University is leading efforts to 
design and construct the next generation of NSF regional class 
research vessels. The ships are designed to operate primarily 
in coastal waters and bays and estuaries on the West, East, and 
Gulf Coasts. They reflect an important long-term investment to 
advance marine transportation, sound fisheries management, 
national security priorities. This research is essential for 
any coastal region.
    And I appreciate the NSF efforts in the short term to 
balance investments in research and infrastructure, but I am 
disappointed that the NSF budget request supports the 
construction of only two rather than three research class 
vessels. Without Congress investing in the three ships, many of 
the Nation's oceanographic scientists will be forced to rely on 
older ships that are less efficient to operate and maintain and 
that lack the technological and scientific capabilities for 
conducting research safely with the most advanced methods of 
the 21st century.
    Additionally, because of economies of scale, the second 
ship is less expensive than the first, and the third would be 
less expensive than the second. So could you please explain to 
the panel how funding for a third vessel would contribute to 
the work of the NSF in the advancement of ocean sciences?
    Dr. Cordova. Thank you, Congresswoman. The two RCRVs which 
are in our budget will significantly improve the support of 
science over their current capabilities, and this number of new 
vessels is in line with the minimum number recommended in the 
National Academies Sea Change report. Two vessels will support 
research in all major coastlines through the existing coastal 
research vessels program, and that is what is in our budget 
request.
    Ms. Bonamici. Thank you. I just want to say for the record 
that because a third would be less expensive than a second and 
it would be beneficial to have the third, I hope that somehow 
we can get to three vessels.
    Also, NSF is proposing a steep cut of 11 percent to the 
social, behavioral, and economic sciences, SBE. I'm 
disappointed but actually not surprised that the Administration 
is targeting this program, but one of America's greatest 
strengths is innovation. It's not enough to educate world-class 
engineers, technologists, and scientists; we also need creative 
and critical thinkers. Our propensity for being entrepreneurial 
and cutting-edge is fostered through the arts and social 
science education. In fact, the Weather Forecasting Innovation 
Act I worked on and was signed into law last year included 
language about incorporating social sciences in community 
readiness and resilience efforts, especially in how we 
communicate that.
    So, Dr. Cordova and Dr. Zuber, you've both made strong 
statements about the value of SBE sciences in the past. Can you 
tell us more about SBE sciences and how they intersect with 
issues of national importance, and can you ensure members of 
this Committee that the NSF is committed to its mission of 
supporting all fields of science and engineering including 
social sciences?
    Dr. Cordova. Yes, I will start and I am sure Dr. Zuber can 
add to this. Last year, we asked the National Academies to do a 
study on the value of the social and behavioral, economic 
sciences. They did a study very quickly, in just a few months' 
time, that had a wonderful group of examples about how 
important these sciences have been to national needs.
    The second point I want to make is that we have in this new 
structure that we described today that's in the fiscal year 
2019 budget of the Big Ideas that all of the Big Ideas are 
convergent ideas. They bring together all the disciplines, and 
social and behavioral sciences will be a big part of that 
contribution, so there will be many opportunities under those 
Big Ideas to further the value of the social sciences.
    Ms. Bonamici. Thank you.
    Dr. Zuber. And I would----
    Ms. Bonamici. Microphone.
    Dr. Zuber. Excuse me. So there are--you know, there are 
many obvious examples of areas where the social and behavioral 
sciences are important for economic competitiveness and 
national security. So for--you know, when you talk about in 
weather forecasting, you know, having--what's the right time to 
put out a siren, you know, to have people take shelter. If you 
do it too often, people will tend to ignore it. There are cases 
in opioid abuse there where we need information on the social 
and behavioral sciences to understand trends and threats. You 
know, facial recognition software actually was used by a 
laboratory that I see, Lincoln Laboratory, that was actually 
used to then apprehend the marathon bombers.
    So one can go on and on about the value of these, and I 
think we actually need to go by more than just the titles 
because when we go in and we actually see what the actual 
research in--is in these grants, I agree with the Director that 
it is--it's been through rigorous peer review and it's 
substantive.
    And the final thing that I would say on this is that we're 
actually at the forefront of a revolution in the social and 
behavioral sciences. So in SBE right now, they're using the 
computer power that mathematical and physical sciences used a 
decade ago. So this entire field is really moving into a much 
more quantitative regime, and so, you know, that will just 
allow, you know, a lot of really objective important work to 
take place in support of the other areas of science within NSF.
    Ms. Bonamici. Oh, thank you. I see my time is expired. 
Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I have been very concerned that we are not putting enough 
emphasis on trying to secure the world in case we would spot an 
asteroid heading toward the Earth. And over the years I've been 
very conscious of this because that could happen tomorrow. And 
I've talked about it over the years, and it seems to me that we 
are not taking the steps that we could so that if an asteroid 
is seen, that we know what we're going to do, how to deflect 
it, et cetera.
    One of the tools that is vital in that goal, in achieving 
that goal of being able to identify the course of some object 
in space that could do incredible damage to the world, one of 
the elements is the Arecibo Observatory in Puerto Rico. It 
actually provides us the ability to go years out in charting 
the course to see if it is dangerous to the world. We've got a 
bunch of young people here, and we want you to have the world 
that we had, and we need to be prepared for a possibility that 
an asteroid could actually come in and destroy that world.
    Are we--what are we doing to make sure that what Arecibo 
has been doing in providing that service and that ability to 
chart those, how are we making sure that that is still getting 
done?
    Dr. Cordova. As you know, a lot of that work is done by 
NASA as a participant at Arecibo Observatory. We have just 
recently announced a new partnership with the University of 
Central Florida, which will be gradually taking over the 
management of Arecibo. And this was a good solution, we feel, 
to our divestment planning for that observatory, which will 
take place over several years' time. We think it's in very good 
hands with the University of Central Florida as a steward.
    The hurricanes, as you know, did wreak some damage on the 
observatory, it wreaked a lot more damage on the entire island, 
which everybody is trying to recover from. We are now back up 
with the observatory up and running. There are certain things 
that we still can't do, but we have supplemental funding 
request included in the Bipartisan Budget Act for necessary 
repair expenses to repair----
    Mr. Rohrabacher. So are you committed to----
    Dr. Cordova. --our facility.
    Mr. Rohrabacher. --making sure that the Arecibo telescope 
and its capabilities of spotting these types of objects that 
could threaten the planet, that it will still--however you 
restructure the system----
    Dr. Cordova. Right.
    Mr. Rohrabacher. --it still will provide that capability to 
those people who are concerned about this issue?
    Dr. Cordova. As long as we have our partnership with NASA, 
yes. They are the ones that are really doing that program with 
us at Arecibo.
    Mr. Rohrabacher. Okay. So it's a qualified yes?
    Dr. Cordova. Yes.
    Mr. Rohrabacher. All right.
    Dr. Cordova. Thank you.
    Mr. Rohrabacher. Yes, all right. I was wondering--and we're 
talking about the budget--sometimes when the Chairman 
justifiably says, ``wait a minute, what kind of study is this? 
Why did you do that?'' And you know, when I was younger my 
father was a military officer and he took me outside at a 
certain time of year and said, ``See all those planes flying 
around? I was ordered to send those planes flying around 
because we had to use up the fuel allotment, and we had to use 
our budget, totally use it up or they were afraid that they 
would lose the budget the next year.'' Now, are--how many of 
these types of nonsensical studies that we're talking about are 
simply at the end of the fiscal year and being used to make 
sure that they use up the budgets so that at the same amount 
next year?
    Dr. Cordova. I appreciate your concern, but I think the 
answer would be none of them. Again, going back to our merit 
review process, we have on any given day several hundred people 
from the external community at NSF reviewing the proposals and 
grading them very strictly. We leave about $4 billion worth of 
proposals rated excellent on the cutting room floor because we 
don't have enough to fund them. So you can be sure that the 
ones we do fund have gone through a very rigorous process.
    I also want to take this opportunity to add that, as of 
March 1 of this year, new language has been inserted in all NSF 
award abstracts, and this says, and I quote, ``This award 
reflects NSF's statutory mission and has been deemed worthy of 
support through evaluation using the Foundation's intellectual 
merit and broader impacts review criteria,'' and it's a pause 
for every division leader who has the ultimate approval of 
programs that are approved within the division by the program 
officers or recommend for funding. They have the final signoff. 
They ask does this fulfill national needs? Does it really pass 
the merit review criteria?
    Mr. Rohrabacher. Well, as the Chairman noted, there are 
some projects that passed, and obviously, somebody's judgment 
was impaired or, as I say, people were looking to use their 
budget. But we'll be watching. We're----
    Dr. Cordova. Okay. Thank you.
    Mr. Rohrabacher. But we wish you well.
    Dr. Cordova. Congressman Rohrabacher, I'd be pleased to 
visit you in your office and go through all--we've written a 
response to every proposal that's been criticized. Those 
responses I share these responses with people that publish the 
criticisms, and they're all online. And I think once we talk 
about it----
    Mr. Rohrabacher. Sure, I'll take a look at it.
    Chairman Smith. Dr. Cordova, I just looked at the 
justification for $450,000 for light blue. If you find anything 
in the national interest in your justification, let me know. I 
did not see it.
    The gentlewoman from Connecticut, Ms. Esty, is recognized 
for her questions.
    Ms. Esty. Thank you, Mr. Chairman, and thank you so much 
for joining us today for these incredibly important issues that 
have those short-term and long-term impacts for all Americans.
    Millions of Americans are unquestionably better off because 
of the basic research that the National Science Foundation has 
funded over decades. It's helped spawn, as you noted, Dr. 
Cordova, some of the giant companies, the cutting-edge 
companies in this country like Google and Symantec and 
QUALCOMM. But I have to tell you and in my district recently 
one of the state universities, Central Connecticut State 
University, just received a $5 million grant to reach out to 
underrepresented and minority students to encourage their 
participation in the sciences. So I know from the ground level 
how important that is both to the students but also to the 
companies in the area who need to see that talented pipeline of 
students.
    But that's one of the reasons why I'm so concerned that the 
President's budget is not going up but rather going down. And 
the purchasing power has been steadily eroded for quite a 
number of years now. Since 2000, China has grown its R&D budget 
by approximately 18 percent annually. In the United States, 
that has increased by four percent. We are seeing the impacts 
of that across the board. I'm hearing from companies that--and 
I'm hearing for research institutions, they cannot retain their 
top scholars because other countries are offering them more 
predictable funding for longer periods of time and greater 
flexibility.
    So I'm deeply concerned about that. We try to get the best 
and brightest. Some of them are homegrown; some of them are 
from around the world. But then for--and sometimes immigration 
reasons they're not allowed to stay, and that's a different--I 
realize not your department, but if you care to talk about the 
impact that's having on our higher ed and research, I'd welcome 
that.
    But particularly, this impact on not having consistent 
high-level funding is making our research institutions like 
UConn and Yale in my State of Connecticut are having increasing 
difficulty in retaining the top-tier talent. And that has 
spillover effects, and that means then the companies don't want 
to say stay because they aren't seeing the best research. Can 
you tell us a little bit about what you're hearing and what 
you're seeing on that front?
    Dr. Cordova. To turn for a response to our Chief Operating 
Officer who was, as you know, at one time head of our Education 
and Human Resources Directorate.
    Dr. Ferrini-Mundy. Thank you. Thank you for the question. A 
big piece of our investment, as you have noted of course, is 
developing pathways for talent for STEM, which is a piece of 
creating an ecosystem that enables a healthy STEM enterprise to 
occur in States and universities and in the Nation. We are very 
pleased with the breadth of our STEM education investments. 
They include our new big idea INCLUDES program, which is very 
much focused on making certain that we are tapping the full 
diversity of our nation, the full talent of our nation to 
ensure that we have a set of people who will be able to take 
leadership roles in universities, in the private sector going 
forward. So, we see this as a very important piece of our 
overall investment.
    I would add that our restructuring within this particular 
budget to focus on the innovations that will be possible 
through our Big Ideas we hope will be very exciting to the 
research community and will intrigue scholars across the Nation 
because of the new convergence possibilities within this area.
    Ms. Esty. But we're also looking at the fact that--and, Dr. 
Cordova, you mentioned this--the number of project proposals 
that receive excellent ratings and yet can't be funded because 
there simply isn't enough money to go around. And I have to say 
I'm concerned about that because when we do have top-tier 
talent and we do have top-tier research projects that we're 
unable to fund, then we get brain drain out of this country and 
it's hard to bring them back. Dr. Zuber?
    Dr. Zuber. Yes, so if I could comment on that. So I don't--
you know, I don't personally know what the right level of 
funding for NSF should be because there are of course many 
competing worthy the priorities. But I do know that of the 
NSF's $7.4 billion budget if we look at the number of proposals 
that received very good or excellent reviews, which means they 
were in the top the top-rated proposals that went unfunded 
because of the lack of funds, that's another $3.92 billion. So 
that would correspond to an NSF budget one and a half times 
what the current budget is without compromising in the least 
bit on quality.
    Ms. Esty. Thank you very much, and I yield back.
    Chairman Smith. Thank you, Ms. Esty.
    The gentleman from Florida, Mr. Posey, is recognized.
    Mr. Posey. Thank you, Mr. Chairman, and I thank the 
witnesses for coming today, fascinating testimony.
    I share the interest in planetary defense with Congressman 
Rohrabacher, and I'm glad to know that Arecibo will continue to 
monitor for our planetary defense. Have you publish any studies 
on our planetary defense?
    Dr. Cordova. I'm not aware of any, but I will check and 
find out. I'm sure that other agencies have, but I'm not aware 
of studies----
    Mr. Posey. If you have, I'd appreciate it if you'd send it 
to my office. And I might state clearly that I do appreciate 
the direction that you're taking the agency now compared to the 
last Administration, and as the Chairman pointed out, the 
$700,000 on Climate Change Musical or $1.5 million to study 
pasture management in Mongolia, I remember medieval basket 
weaving, studying why one certain segment of women are fat.
    I mean, compared to the China budget that somebody was 
talking about before, I think we'll find that we spend more 
real resources on research than they do, and I think if they 
got caught wasting the money on some of the things we have 
done, they'd probably put some people to death over there for 
it. All we can do is struggle to protect the taxpayers from 
stuff like that in the future.
    You mentioned the opioid crisis. My driving question was 
going to be whether or not we have put any study toward the 
behavioral sciences. Have we ever looked at the opioid crisis 
or the root causes of violence in our schools?
    Dr. Ferrini-Mundy. Certainly within a variety of our 
directorates, including our social, behavioral, economic 
sciences, studies of behavior have been crucial in helping us 
to understand why various trends happen in society, how to make 
change, how to change people's behavior. That is part of the 
fundamental work in the social, behavioral sciences. So we 
certainly have some investment in those kinds of things, and we 
can follow up with some very particular kinds of examples for 
you if that would be useful.
    Mr. Posey. I would like information on particular resources 
you've developed on the opioid crisis and also the violence in 
our schools.
    Dr. Ferrini-Mundy. Certainly. And again, these would be 
resources that are funded principal investigators have produced 
with NSF funding, and so we can certainly survey what we have 
and get that to you.
    Mr. Posey. Okay. Any insight you could give us now as to 
what they revealed?
    Dr. Ferrini-Mundy. I think we need to get back to you with 
details to be sure that we get it to be accurate.
    Mr. Posey. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Posey.
    And the gentlewoman from Nevada, Ms. Rosen, is recognized.
    Ms. Rosen. Thank you, Chairman Smith. Thank you to the 
distinguished panel here today. I really appreciate your work 
and your--all the advancements that you've made and your 
commitment to science.
    You know, I want to really talk about computer science 
because it's really critical right now. I'm a former computer 
scientist myself. But as our economy changes and we become 
increasingly driven by technology and data analytics, whether 
it's hard science or behavioral science in order for us to move 
our country forward in meaningful ways, this committee really 
has tried to ensure that we're educating the next generation of 
computing experts.
    I'd like to thank Chairman Smith and Ranking Member 
Johnson. We did get my bills passed, ``Code Like a Girl'' and 
the ``Building Blocks of STEM'' to help in our education for 
young girls in early childhood.
    But one of my top budget requests is for the computer and 
information science and engineering program which supports both 
computer information science and engineering research. It's 
going to cut--the President's budget is cutting this STEM+C by 
$19 million. So, Dr. Cordova, I really want to see if you could 
address the changes NSF is making in its approach to supporting 
computer science, especially in the lower grades, to ensure 
that we have the people pipeline coming through. How do we best 
support--you talk about the evolution of our education that 
needs to happen. It can't just happen at the university level. 
We have to prepare these kids coming up. We're getting these 
big budget cuts. How can we do that?
    Dr. Cordova. Thank you, Congresswoman Rosen, and thank you 
for your passion on this subject. So these are two things I 
want to say. One is that computer and information science and 
engineering is not really being cut because they're an enormous 
part of the Big Ideas. In fact, of the two convergence 
accelerators, one is Harnessing the Data Revolution is all in 
that area, and the other one is the Future of Work at the 
Human-Technology Frontier, and that's about artificial 
intelligence, machine learning, neural networks, and so on. So, 
they are an integral part of shaping those accelerators and of 
the big corresponding fundamental Big Ideas.
    In K-12, we have several programs in computer science. I'll 
just run through the names of them and we can send you follow-
up details, but Computer Science for All supports researcher-
practitioner partnerships that foster the need to bring 
computational thinking to schools at that level. We have 
STEM+C, computing partnerships in K-12, Innovative Technology 
Experiences for Students and Teachers, Discovery Research PreK-
12. Those are all K-12 programs that promote the interests of 
students and their capabilities to participate in the STEM and 
computer science workforce.
    Ms. Rosen. Thank you. I really appreciate that because I 
think if we don't build our natural people pipeline starting in 
kindergarten, especially with young girls and minorities, 
people who don't think that they can do this or these things 
aren't open to them, then we are really losing a valuable asset 
to our future growth, so thank you for your work.
    I yield back.
    Chairman Smith. Thank you, Ms. Rosen.
    And the gentleman from Arizona, Mr. Biggs, is recognized 
for his questions.
    Mr. Biggs. Thank you, Mr. Chairman. I appreciate that, and 
I appreciate each one of you being here today. I'm glad to have 
you and appreciate the very interesting testimony. And I was 
very interested in the Puerto Rican observatory, and I'm 
grateful to hear what's going to happen there.
    One thing that seems to have been highly emphasized here 
today and it's appropriate to emphasize is the budget because 
we're talking about budget today. But what I continue to hear 
is the detriment that's going to happen to the budget for my 
friends across the aisle. But it's okay to point out problems; 
I don't mind pointing out problems. Let's tackle them. Let's 
take them head-on.
    But when we talk about percentage of growth in, say, tech 
spending in China versus tech spending in the United States, 
nobody talks about what the baseline is because if you're going 
to make an assessment that's on comparability of funding, you 
really need to know what the baseline is when you start talking 
about percentages. And China over the last 30 years has 
increased dramatically in their overall funding and tech 
spending, but their baseline was very low to begin with and now 
the projections are sometime in the early '20s, that they will 
actually meet somewhere near where the United States is. But as 
far as real dollars go, the United States continues to be a 
leader there, and I think that's critical to understand.
    And the other thing I would say is there's a lot that goes 
into creating a national budget. And China already is overall 
matching E.U. spending according to the reports that I just 
read because I was curious when I started hearing all this, I 
thought, I'm going to pull up some reports and see what I can 
get. But there are other things--other variables not in 
consideration here, for instance, are we tacitly subsidizing 
anybody else who's doing research because we're spending for 
defense and military in protecting those countries so they can 
put money elsewhere. What level of taxation do my friends want 
to support the spending level they seek? And then are there 
other programs within the federal government that they might 
wish to reduce to backfill what they view as a reduction for 
the NSF?
    So these are some thoughts that I raise before I get to my 
question, but I appreciate that you're here and actually for a 
forum to kind of vent on what solutions are being brought to 
the table because I'm just hearing problems brought to the 
table.
    The federal government has been funding STEM education for 
decades, Dr. Cordova. Every year, larger emphasis is placed on 
the subject, and every year we hear how we're falling further 
behind. I'm interested in knowing what have we learned from 
previous investments in STEM about what is working, what is not 
working, how can we be confident that new investments are being 
put in the right place for the right activities? In other 
words, how can we become the most efficient, the most 
effective?
    Dr. Cordova. Great. Thank you. You have a whole range of 
things covered there. I will start with solutions because 
that's where you're going, and then I'll ask Dr. Ferrini-Mundy 
to answer your last question about STEM and efficiencies and 
especially evaluation and assessment, which is our middle name. 
NSF is well known for doing that for all its programs.
    On solutions, that's why we have structured a different 
budget for fiscal year 2019. We have a number of National 
Academy reports, reports out of committees of the National 
Science and Technology Council, advice of our advisory 
councils, and advice of the National Science Board that we need 
to be especially strategic in this day and age to meet 
challenges. And to deliver solutions for the country as quickly 
and as efficiently as possible. That is why we came up with 
this idea, which is now a structural idea in our budget of 
convergence accelerators to try to target those areas that are 
most ready because they have the most public interest and the 
most industry participation and really go after some near-term 
solutions in that space that we can bring to people very 
quickly.
    NSF welcomes all proposals. It's what we call our core 
funding. And we fund blue-sky ideas. We take some risk. Some of 
them, like the LIGO that we funded for 40 years, after 40 
years, they produce Nobel Prize-winning results. But we also 
need to reserve a part of our budget to be very strategic and 
very focused on solutions, so we're doing that. And I hope that 
you will like the results that we get from this.
    Let me turn to Dr. Ferrini-Mundy about evaluation and 
assessment.
    Dr. Ferrini-Mundy. Thank you. So that's a really important 
topic for us. We want to be sure that our investments in STEM 
education, are strategic and are likely to have impact. And for 
that reason, for many decades now, NSF has funded not only 
attempts at intervening and improving STEM ed but attempts to 
study and evaluate and assess the effects of those kinds of 
efforts.
    And I'll cite just a few key results where we really have a 
solid basis in research to talk about change and improvement in 
STEM education. One is at the undergraduate level, and we have 
got academy reports that help with this. We've learned very 
firmly through research that to retain undergraduates in STEM, 
a very key principle is to engage them actively in their 
learning to be sure that instruction is really designed to 
bring those students in, to give them research experience as a 
part of what they are doing in their undergraduate courses, and 
to make sure that they have the chance to really see what STEM 
looks like in practice.
    That sounds fairly straightforward. It turns out to make 
that kind of a change in our nation's universities is not 
straightforward, but it's something that we know we should be 
headed toward.
    At K-12 we know a lot about teachers and about what will 
help teachers be most effective in getting kids to learn well, 
and some of that has to do with the nature of how they 
understand the STEM subjects and how particularly elementary 
teachers in such fundamental areas as mathematics are prepared 
to be effective in meeting children where they are and moving 
them toward deep understanding of mathematics. So we have an 
array of findings, and we're applying those in how we actually 
design our programs.
    Mr. Biggs. Thank you. I've far exceeded my time.
    Chairman Smith. Thank you, Mr. Biggs.
    Mr. Biggs. Thank you, Mr. Chairman.
    Chairman Smith. The gentleman from California, Mr. 
McNerney, who may well be in contention for having one of the 
best attendance records of any Member of this Committee.
    Mr. McNerney. Well, I thank you for that shout-out, Mr. 
Chairman.
    I certainly appreciate the work the NSF has done over the 
years, together with the NIH and the NASA, really put America 
as an undisputed leader of science for the past half-century, 
but we see that that may be changing and we need to worry about 
that.
    I appreciate your statement, Dr. Cordova, that we will not 
have the discoveries of tomorrow without the workforce of 
tomorrow, but then I see a 15 percent reduction in the graduate 
research fellowships and also research experience for 
undergraduates. Now, being a graduate student is pretty tough 
to make ends meet. To get grants is a very big deal. How can we 
kind of square that? Because we see when you're a graduate 
student in the sciences, your contemporaries are out there 
making 10 times as much money as you are. And you get your 
Ph.D. and you become a postdoc, and again, they're increasing 
and you're slowly flat. So how can we sort of square that 
against a desire to have more people move into the STEM fields?
    Dr. Cordova. We fund graduate students in a great variety 
of ways. The biggest program that we have is for graduate 
research assistantships, and that comes through our grants 
programs when a professor is awarded a grant and they can 
support graduate students on that. That's indeed how I was 
funded once upon a time.
    We have other programs like the Graduate Research 
Fellowships Program, which is a very--a distinctive program 
that we are very, very proud of. Until just a few years ago, we 
funded 1,000 students per year, and then we raised it for a few 
years to 2,000 and now it's at 1500, which is still higher than 
it was before.
    We have introduced a new program called Research and 
Traineeship programs in specific areas like computer science 
and nanotechnology to train cohorts of graduate students. The 
traineeship of students and the ability to get into the 
research world at an early stage and be funded to do that 
research just couldn't be more important. And you yourself were 
one of those students at one time, and all three of us were as 
well.
    Mr. McNerney. Well, I didn't mean to put you on the hot 
seat there, but I did want to raise that deduction in the 
research fellowships and undergraduate research.
    Dr. Zuber. Yes, could I just add to that? So China has made 
a commitment--and this is extraordinary--to devote 15 percent 
of their GDP to talent development, okay? And so part of that 
is going into--they don't define exactly what talent 
development is in all ways, but certainly, the Thousand Talents 
program that they've implemented is to bring back Chinese 
scholars who have studied outside of China, to bring them back 
to China and set them up in a research career.
    So one of--I had a postdoctoral fellow who worked with me, 
and he was hired back to a university in China, given a startup 
package that was the equivalent of a full professor. And he 
was--he got an assistant professorship position. So they are--
you know, they are investing very aggressively to bring their 
talent back home----
    Mr. McNerney. Thank you. And----
    Dr. Zuber. --and we need to be aware of that.
    Mr. McNerney. And I don't want you to use all my time on 
the question. The opioid crisis, it's multipronged. It's a 
human behavioral issue. Is there research that the NSF could do 
that would help us understand and maybe deal with that crisis? 
And also you can add gun violence into that answer if you wish.
    Dr. Cordova. Our head of social and behavioral, economic 
research program Dr. Fay Cook is a member of the 
Administration's Opioid Task Force, and they are working on 
interagency solutions to address this. We would be happy to 
look into particular research that we're funding along those 
lines, Dr. McNerney, and get back to you.
    Mr. McNerney. Thank you. A guess I have another half-
minute. NSF has shown over time a commitment to cooperation 
with international scientists, but you've recently announced 
the closures of offices in Beijing, Brussels, and Tokyo by this 
summer. Can you kind of explain how that was decided?
    Dr. Cordova. This was a strategic move to be more with the 
times as far as approaching the question of where could we make 
the biggest scientific advances internationally and 
international collaborations. Having one person at each of the 
three offices is arguably not the way to do that. It puts a 
huge demand on their intellectual capacity and also to cover an 
enormous sector of the globe, because we had only three 
offices.
    In fact, what we see more and more today, for example, in 
financial institutions, is that teams of experts go to 
countries to evaluate the possible portfolios to judge what is 
the quality of assets, what kinds of people are running the 
assets, and where collaborations that are win-win 
collaborations for all the countries involved and really 
contribute to intellectual merit can be had.
    So this is our plan. We have two groups already in 
formation--one will go to Europe and one to Asia--to study very 
specific areas which we think are vital for economic growth in 
our country. We want to see what other countries could bring to 
the table. We think it's a better plan and is more in keeping 
with the times. It's the way industry does it.
    Mr. McNerney. Well-answered. I yield back.
    Chairman Smith. Thank you, Mr. McNerney.
    And the gentleman from Florida, Mr. Dunn, is recognized for 
his questions.
    Mr. Dunn. Thank you very much, Mr. Chairman, and I thank 
the panelists for being here. Dr. Cordova, it's great to see 
you again. I think last time we were together we were standing 
on an ice sheet in Greenland. It's still pretty cold by my 
Floridian standards there, I'll be honest with you.
    I will tell you that I've enjoyed the time I've had 
chatting about science with Dr. Cordova. I'm sorry I haven't 
had a chance to chat with the other panelists on a more 
personal basis. And certainly the Chairman knows that I will 
spend the whole time here talking about science with you if I 
could, but we're here to talk about the budget, so here we go.
    In all the major corporations and government agencies that 
I've been associated with, they have an audit process and plan 
for auditing the processes and the finances both inside an 
organization. I would like to know a little bit about your 
audit plan and processes.
    Dr. Cordova. This is a perfect topic for my Chief Operating 
Officer.
    Mr. Dunn. Okay.
    Dr. Ferrini-Mundy. And also possibly for our Board Chair to 
pick up because this is something that is done jointly with the 
National Science Foundation and the National Science Board, but 
our major audit is our annual financial statement audit. That 
occurs each year and is quite consuming for the agency overall 
in that we begin the minute that it's completed with the 
preparation of materials and our interactions with the external 
auditors for--
    Mr. Dunn. Okay. So that's good to hear. So you have 
external auditors as well----
    Dr. Ferrini-Mundy. Yes.
    Mr. Dunn. --as the GAO involved in this?
    Dr. Ferrini-Mundy. Absolutely.
    Mr. Dunn. I guess this is GAO, am I right?
    Dr. Ferrini-Mundy. Well, no, no, these are private----
    Dr. Cordova. The inspector general has a private firm come 
in and do it----
    Dr. Ferrini-Mundy. Right.
    Dr. Cordova. --under the auspices of the inspector general.
    Mr. Dunn. Excellent. Excellent. And do you alternate those 
some--you know, a few years with one firm and then another 
firm----
    Dr. Ferrini-Mundy. Yes, we have a firm now.
    Dr. Zuber. Yes, it was alternated last year.
    Mr. Dunn. Okay. Great. So this annual report, I'm not privy 
to that. Is that something that's in our package? It's not in 
the one that I received. No?
    Dr. Cordova. I believe it's online. We can certainly send 
you----
    Dr. Ferrini-Mundy. We can get you----
    Dr. Cordova. And the agency of course writes its own 
response and the Board----
    Dr. Zuber. The--yes, the Inspector General's Office comes 
up through the Oversight Committee of the National Science 
Board, and I--I'm happy to say that NSF has received an 
unqualified audit report so--
    Mr. Dunn. Excellent.
    Dr. Cordova. For 20 years, we've had a clean report, and 
this year we had no significant deficiency. So, Chairman Smith, 
I'm very proud of that----
    Mr. Dunn. That's----
    Dr. Cordova. --our facilities has gone away so--
    Mr. Dunn. Yes, I think that's important. You know, the 
taxpayers --we are constantly, in our offices, bombarded with 
complaints, outrageous complaints about, you know, this study 
was studying something useless and meaningless and wasting 
taxpayer dollars. So how do you answer those complaints when 
you get them?
    Dr. Cordova. Okay. Well, it's a little different than the 
financial report of some of our--
    Mr. Dunn. Oh, yes. I'm--I didn't----
    Dr. Cordova. --financial systems but--
    Mr. Dunn. I mean--I think an audit should look at not just 
finances, also processes----
    Dr. Cordova. Right.
    Mr. Dunn. --and also product.
    Dr. Cordova. Right. And certainly, the Board is one of the 
best places for looking at the quality of what we're doing 
and----
    Dr. Zuber. Yes, so the--you know, the National Science 
Board oversees the Foundation, and the Director is a member of 
that board. So--and, you know, we look through--NSF compiles 
information on peer review, and that is given to the Board, and 
the Board looks at that with great scrutiny and always pressing 
the National Science Foundation to improve its processes 
because, you know, I think the process for peer review is quite 
robust, but it can always be improved. The Chairman has made it 
a point to keep after the agency on that, and we're very 
serious in our oversight role. And NSF agrees that, you know, 
constant improvement is worthwhile.
    Dr. Cordova. And Congress has to take a lot of credit 
because through reports like the AICA that they've gotten us to 
also look more intensely at our processes and to adopt new 
ones. So as a result of the AICA and the NAPA report and a 
report from our own Business and Operations Advisory Committee, 
I instituted the position, starting this past January, of Chief 
Officer for Research Facilities. This is one example because in 
the research facility areas we've had a number of critiques 
over the past few years. So this has dramatically--in just a 
few months' time dramatically improved our oversight, and it 
allows me as Director to really see the agency and what's 
happening and all the different facility areas immediately.
    Mr. Dunn. I'm running out of time, but I just would like to 
say I would like to see the report that the Board sees if we 
could on the finances processes and the products, but that's 
very good. Thank you very much. It's always good to see you, 
Doctor.
    Dr. Cordova. We will provide that to you.
    Mr. Dunn. I yield back.
    Chairman Smith. Thank you, Mr. Dunn.
    The gentleman from New York, Mr. Tonko, is recognized.
    Mr. Tonko. Hey, thank you, Mr. Chair, and thank you to our 
witnesses for being here today and for the very important work 
that you do.
    I want to be clear. We should not be flat-funding 
education, and we should not be flat-funding research. Flat 
funding for almost a decade will mean cuts certainly to 
critical programs.
    And I listened as Representative McNerney was quizzing you 
about the education cuts. I would have to say it goes further 
than that because the research cuts are a critical component. 
And I just want to do that through the eyes of a brilliant 
student that I represent in the capital region of New York. And 
it illustrates exactly why education and research funding 
should be a national priority.
    Erin Byrne Rousseau is from Burnt Hills, New York, in the 
capital region, 20th Congressional District of New York. She 
grew up in the capital region and went to college at the 
University of Albany where she studied nanoscale science. She 
is currently working toward a Ph.D. in medical engineering at 
Harvard-MIT Health Sciences and Technology. Erin is a member of 
the Science Policy Initiative, a student group created to 
support the next generation of scientists and engineers and 
contributing to robust science-based policymaking.
    Erin is grateful for the federal support that allowed her 
to excel at her studies. As an undergrad, she was inspired by 
her university where many programs and research were made 
possible by federal funding such as NSF, NIH, DOE, and more. 
She is an NSF graduate research fellowship awardee, and the 
research she has worked on was possible in part from NIH 
funding.
    In the lab she used technology that would not exist if it 
were not for DOE funding. Erin is working on research to study 
the neurological basis of mental health disorders, and her 
research has implications for our understanding in the 
treatment of mental health and addiction.
    Erin is truly an impressive--is truly impressive, and she's 
just at the beginning of what I believe is a great career. Erin 
thanked me for supporting funding for science and research, 
and, Erin, let me say thank you for all that you are doing for 
all of us and all you will do.
    And to my colleagues, we need more Erins who are going to 
be inspired to choose a STEM pathway and who will repay our 
nation's commitment by moving science forward and changing our 
world.
    Dr. Cordova, do you agree that NSF has the power to inspire 
our next generation of scientists and engineers? And if so, 
what effect would budget cuts or flat funding have on our 
future workforce?
    Dr. Cordova. Yes, of course I think that NSF has the 
opportunity and the privilege to inspire the next generation of 
scientists and engineers, and they can come from anywhere. They 
can be Erins, they can be young children, they can be people 
looking for transitions in the jobs that they already have.
    And we've mentioned a couple of times here that there are a 
lot of proposals that are judged at the very highest level the 
rating of excellent that we simply are not able to fund within 
our budget.
    Mr. Tonko. I would hope that we would understand that as we 
put a budget together because these cuts are severe. Flat 
funding sounds kind, but it is brutal.
    I'm disappointed to see also that the large proposed cut 
that are levied at social, behavioral, and economics research, 
cuts to social and behavioral science will ripple out across 
many science, technology, engineering, and mathematics research 
fields, hurting those fields as well. Behavioral sciences have 
had widespread positive impact on our nation and the world. In 
fact, every winner of the Nobel Prize in economics since 1997 
has been a recipient of a social, behavioral, and economic 
sciences grant at the National Science Foundation, the very 
divisions some suggest we should slash.
    We must continue our investment in behavioral sciences, and 
we should continue the long bipartisan tradition of funding and 
conducting research across the federal government. That 
research by very definition will have many failures, but 
failure is the down payment on success. Can you speak to the 
value of the Social, Behavioral, and Economic Sciences 
Directorate to issues of national importance?
    Dr. Cordova. Yes, we have many, many examples of the huge 
impact of the social and behavioral sciences, and again, the 
National Academies report that came out last spring cited a 
long list of those. Among them are the auctioning of the 
electromagnetic--auction of the airwaves spectrum by the FCC, 
the Oregon kidney donor exchange programs that grew out of game 
theory, the predictive policing that is proving so helpful in 
some of our big cities and towns. They've done a lot of 
research on risk and resilience to natural disasters like 
hurricanes and tornadoes and other disasters that befall the 
planet.
    And in the areas of learning, they can be especially 
important in how children of different backgrounds and 
experiences, how they learn, and how they assimilate their 
knowledge and create new knowledge. And I turn to my colleague 
Dr. Zuber for some other examples.
    Dr. Zuber. So studies--you know, there have been studies of 
why do children from excellent families go off and experience 
terrorism, okay? And so it turns out that it's, you know--
there's research into that that has been useful in identifying 
that. And even, you know, young people who turn to terrorism 
from poor economic--the poorer part of the economic spectrum, 
it was found that, you know, there's some moral and idealistic 
causes that are motivating them, you know, as opposed to 
economic causes. So it's not just a case of getting them into a 
better economic circumstances, that one needs to look at moral 
imperatives that are different from terrorism, that are more 
productive, so that's another example.
    Mr. Tonko. Well, I think the information that comes from 
neuroscientists and cognitive scientists can be very, very 
useful in responding to many of the needs we have out there.
    And with that, I yield back, Madam Chair.
    Mrs. Comstock. [Presiding] I now recognize Mr. Hultgren for 
five minutes.
    Mr. Hultgren. Thank you, Madam Chair. Thank you all so much 
for being here, grateful for your work and grateful for the 
opportunity for us to talk about the great work that NSF is 
doing and the really requirement that we must continue to fund 
and grow funding.
    I've had the chance to visit universities across the State 
of Illinois, have had the chance to work and see what NSF is 
doing there and other great places. I'll actually be at 
Northern Illinois University this Saturday with my STEM 
Scholars. It's 30 young people from around the seven counties 
that I represent that I meet with every single month, and a 
wonderful group, incredibly bright, very excited to--out of the 
30--almost 30--I think about 18 or 19 of them are young women. 
Ten or 11 are young men, so we're encouraged by that, too, that 
we need everybody to be interested in science and STEM fields.
    But we're going to be traveling to NIU where we are going 
to visit the Sub-Ice Rover, which was used to explore 
Antarctica, as well as the STEM maker lab. And our group is 
going to be only the second group to use new laser cutters, 
which we're really excited about.
    I've had a good opportunity also through FIRST Robotics to 
meet with some great young people in my area, just a couple 
years ago met with a young woman from my district who was able 
to earn a full-ride scholarship to the University of Alabama in 
aerospace engineering. But one of her main concerns as I've 
continued to visit with her and talk with her and learn from 
her is for her to see peers who are very excited about STEM 
become discouraged and change degrees in the first few years of 
college, bright young people who were so used to getting 
straight A's and now all of a sudden they're getting B's and 
C's and decide this isn't for me. You know, since I'm not 
getting an A, I must need to switch to some other course.
    So I just wanted to check, Dr. Cordova, if maybe you could 
address what work is NSF doing to make sure that students going 
through these kinds of tough fields are able to maintain their 
passion and avoid washing out of these programs when maybe they 
aren't getting the A's that they were used to through high 
school?
    Dr. Cordova. I'm going to turn in just a moment to Dr. 
Ferrini-Mundy.
    Mr. Hultgren. Great.
    Dr. Cordova. She's very familiar with the research that 
we're actually doing in this area.
    But so let me just rewind to when I was a University 
President and really worried about that, and I was worried 
about what we called gateway courses that you would, look to 
your left, look to your right, and one of the people sitting 
there won't be there at the end of the semester kind of thing.
    So I think universities have a lot of responsibilities, and 
I think Dr. Zuber being from MIT will agree with me that 
ensuring that instructors are actually motivating students to 
get through rather than weeding them out. I think there have 
been a lot of programs that universities are changing in this 
direction.
    We had, in engineering at Purdue University, some 
engineering education department within the college of 
engineering, which is huge, that is specifically trying to look 
at new methodologies for getting students through these kinds 
of courses. Not just in engineering but university-wide. And I 
think when I see the retention rates and, as a University 
President, I would look at the retention rates between the 
first and the second year, and we increased that from the kind 
of low levels you're describing to something like 97, 98 
percent of students would continue on.
    Mr. Hultgren. Good. That's great.
    Dr. Cordova. So things are improving.
    Dr. Ferrini-Mundy. I can't add a lot other than to say 
congratulations to you on your STEM Scholars.
    Mr. Hultgren. Thanks.
    Dr. Ferrini-Mundy. That's a wonderful investment of time.
    Mr. Hultgren. It's really been fun.
    Dr. Ferrini-Mundy. I should think so. You know, as Dr. 
Cordova mentions, it's those gateway courses that are quite 
critical for retention, and we are funding some interesting 
experiments in changing up the content of those courses----
    Mr. Hultgren. Great.
    Dr. Ferrini-Mundy. --starting with the statistics or 
quantitative reasoning kind of approach rather than always 
calculus, which is the tradition, and that's showing some 
terrific results.
    Mr. Hultgren. Good.
    Dr. Ferrini-Mundy. And a variety of other approaches to 
helping faculty improve their instruction so that they are 
inspiring students and strengthening K-12 education.
    Mr. Hultgren. Yes. That's so important, too.
    Let me jump on just in my last minute, Dr. Cordova, as you 
know, accelerator physics is a field where industry and even 
our DOE labs find a short of shortage of trained workers. We're 
only graduating about 15 Ph.D.'s a year. There are only a few 
universities that have accelerator physics programs to train 
these workers. Many of the students go out of their way to be 
able to get the schoolwork necessary to advance in these 
fields.
    We're fortunate with NIU being relatively close to Fermilab 
having some opportunities there. Stanford has SLAC close by, 
which is great. But when a university is not near one of the 
national labs, many students actually have to take part in 
intense two-week accelerator school programs every summer where 
students come to one location to get their graduate-level 
training.
    It's my understanding that NSF will be discontinuing their 
accelerator science program. It's a program that was started in 
2014 to address the workforce shortage and ensure that the 
United States was maintaining their position at the forefront 
of this field. This has not been a large program by any means, 
but I think it is an important one for the field.
    I'm also concerned that broader physics grants will not 
take into account the need for basic scientific research in 
accelerator science. I wonder if--I'm already over time--but 
maybe we can follow up some more, if you have a thought or two 
on this of what we can do to continue to see this as important 
and making sure that we have the people to fill these important 
roles?
    Dr. Cordova. I can just say that I agree with you. 
Accelerator physics is what inspired me to become a physicist. 
We are of course a big participant in the CERN accelerator 
physics program----
    Mr. Hultgren. Yes.
    Dr. Cordova. --as you've seen it. Fermilab, because we've 
seen each other there on tour----
    Mr. Hultgren. Right.
    Dr. Cordova. --that we are funding a lot of research there, 
Stanford University of course in their efforts. And I'll follow 
up with--on the details of the accelerator science program.
    Mr. Hultgren. Great. Thank you so much. Thank you all. 
Thank you, Chairwoman. I'll yield back.
    Mrs. Comstock. Thank you. And I now recognize Mr. Foster 
for five minutes.
    Mr. Foster. Thank you, Madam Chair.
    And thank you for your service.
    You mentioned that the NSF top line budget was overall 
flat, but that, I understand, was not the original proposal. 
That was the number they got adjusted after Democrats insisted 
on having proper funding for that section of the budget. And so 
what was the number before the final addendum came out?
    Dr. Cordova. Minus 30 percent.
    Mr. Foster. So a 30 percent cut, and then the Democrats 
negotiated it up to flat. Is that a fair summary of what 
happened?
    Dr. Cordova. The President's supplement came out, a $2.2 
billion supplement, so that's--
    Mr. Foster. Yes, okay. You don't have to----
    Dr. Cordova. The caps were raised--
    Mr. Foster. --go into the details of the negotiation, but I 
think that's an important point.
    Now, one of the features of your proposal is you're going 
to be closing the NSF offices abroad, that you've announced I 
guess last month that offices in Tokyo, Brussels, and Beijing 
were being closed. You also said in your--in I guess all of 
your testimony is that the rest of the world is catching up and 
in some cases passing us. And so what is it--you know given 
that we'll have a lot more to learn scientifically and in 
collaboration with other countries, what's the motivation for 
closing the foreign----
    Dr. Cordova. So exactly right, Dr. Foster. We have a lot 
more to learn, and we think that having one person in each of 
three offices abroad is not the most efficient way to learn 
about the science that we can really do in a high-quality, 
directed, focused way with other countries. That demands a lot 
of them in terms of intellectual breadth, in terms of covering 
a vast geography. We are adopting a practice that is well used 
in industry these days, which is sending expert teams of 
scientists and engineers from different parts of the country, 
and they'll be accompanied by a couple of NSF people to certain 
areas where we think that there are assets that could be 
complementary to our assets. And the assets include physical 
ones, as well as human capital.
    We are looking in depth at what the nature of a 
collaboration could be. So take like quantum research or 
artificial intelligence or we're disposing a team soon to look 
at synthetic biology. With careful background study of what are 
the areas and invitations from other countries to look at 
these, we think that we can have more win-win collaborations 
where we really understand what they bring to the table and 
what we do. It's a new strategic approach.
    Mr. Foster. So this is not--doesn't represent a drop in 
your interest in international collaboration----
    Dr. Cordova. It represents--
    Mr. Foster. --or just a more--what you hope to be a more 
efficient deployment of resources for that? Okay. Thank you. 
That's important. How much do you end up spending on research 
into handgun violence?
    Dr. Ferrini-Mundy. I don't believe it's a direct topic for 
us. We could look across various programs to see--
    Mr. Foster. Is it----
    Dr. Ferrini-Mundy. --if there's fundamental research.
    Mr. Foster. --prohibited or do you have any calls for 
proposals at any point?
    Dr. Ferrini-Mundy. I would have to look into our background 
to--
    Mr. Foster. Okay. If you could----
    Dr. Ferrini-Mundy. --find out more about that.
    Mr. Foster. Yes, I'd be interested to know if you are also 
handcuffed in this area, as other areas of federal research.
    Dr. Ferrini-Mundy. My hunch would be we have some 
fundamental social science research that would certainly inform 
questions in that area, but I would have to check to be 
certain.
    Mr. Foster. Yes, but even prohibitions on chameleon basic 
statistics, for example, are things that we run into in other 
areas.
    You also mentioned the workforce thing and the need to make 
sure that we keep the best and brightest of other--from other 
countries that we educate here. And, Dr. Cordova, you're a 
physicist. Have you ever in your career had two first-author 
Physical Review Letters published in the same year?
    Dr. Cordova. No, I published in The Astrophysical Journal.
    Mr. Foster. Okay. All right. Well, same question, yes.
    Dr. Cordova. Okay. Same question, have I ever had two 
papers--
    Mr. Foster. Two in a year----
    Dr. Cordova. --published in--
    Mr. Foster. --just----
    Dr. Cordova. Oh, absolutely.
    Mr. Foster. As the first author yourself?
    Dr. Cordova. As a first author probably. I could--
    Mr. Foster. Okay. Well, no, it just----
    Dr. Cordova. Yes, I published--
    Mr. Foster. --because----
    Dr. Cordova. --a lot in my day.
    Mr. Foster. --I encountered a situation--okay.
    Dr. Cordova. Yes.
    Mr. Foster. Well, I encountered a situation recently where 
you, as I, have probably penned letters for an Einstein visa 
for, you know, very talented people. Yes, I see some nods from 
the other--that--and what you see--you know, you're in this 
heartbreaking situation where someone that you just know should 
be a keeper and you can't--the one that I was unsuccessful at 
getting recently had two--been first author in two Physical 
Review Letters, a postdoc--as a postdoc, was first author in 
two PRLs which are, you know, the premier peer-reviewed 
journal. And yet that was insufficient to get an Einstein visa.
    And so my question is when you see--you know, in the 
presence of, you know, that sort of failure I think that we've 
all had from time to time in getting people permission to stay 
and then you read that, you know, a model was given the 
Einstein visa for probably non-STEM-associated skills. You 
know, do you--does it strike you that we're just way off the 
mark in what we're trying to accomplish with getting high-
skilled immigrants into the United States?
    Dr. Zuber. Excuse me. Thank you for the question, Dr. 
Foster. So I don't know the qualifications of any of the other 
people who, you know, were awarded the Einstein visa, so I 
can't really do a comparison because there are needs in many 
different areas, but I will certainly say that the individual 
that you mentioned, it is--that's an absolutely top journal in 
the field, and, you know, obviously that individual is very 
accomplished.
    What I would say is that certainly within this country 
there is additional capacity to keep the top highest-achieving 
individuals from all over the world and in fact, you know, that 
has been our modus operandi in this country to attract the best 
and the brightest from around the world. And I hope that we 
continue to do that.
    Mr. Foster. And find a way to keep them. And thank you. I 
yield back.
    Mrs. Comstock. Thank you.
    And I now recognize Dr. Babin for five minutes.
    Mr. Babin. Yes, ma'am. Thank you, Madam Chairman. And thank 
you, witnesses, for being here and for your valuable testimony.
    And, Dr. Cordova, good to see you again. And I'd like to 
ask you a couple of questions if you don't mind. The United 
States is one of the most if not the most innovative and 
technologically advanced nation in the world, yet we lag behind 
other industrial nations in ensuring that American students 
receive the requisite skills for success in a 21st-Century 
workforce. How would you each--I'm asking you, too, Dr. Zuber--
both of you. How would you each define success in the field of 
STEM studies and computer science education, and do you think 
we can achieve this and when? Let's start with Dr. Cordova.
    Dr. Cordova. Clearly, we must because it is a skill that 
everyone really needs to have for all sorts of occupations, not 
only STEM alone. We have a great variety of programs that we 
fund over all ages from K-12, undergraduate, graduate, postdoc, 
and early career and beyond to try to give people the 
opportunity to really increase their STEM and computer science 
capabilities. In fact, our real goal is to provide access to 
everyone, and that's why we call one of our programs Computer 
Science for All.
    We also have interestingly for the past 24 years Advanced 
Technological Education program that is mainly housed in our 
community colleges nationwide. Thus far, we've sponsored 1,500 
awards and have over $300 million in industry support because 
there are partnerships with industry in retraining workers for 
skilled jobs. And a lot of that curriculum has to do with 
computer science as well.
    Mr. Babin. Okay. And, Dr. Zuber?
    Dr. Zuber. And so let me just add one can look at computer 
science a couple of different ways. There is an--advancing that 
specific field, okay, and then there is infusing the results of 
that, those skills, into a whole variety of other different 
fields. And so both of those actually need to occur, and they 
need to occur not only at the level of students who get four-
year degrees but also in what we call the skilled technical 
workforce, so workers who--we call this STEM awareness, okay, 
who don't necessarily have a STEM degree, but virtually any job 
that you can think of today--many--a whole variety of jobs that 
you can think of require some amount of STEM skill and 
computation skill or computer skill, so even, you know, working 
at a grocery store--
    Mr. Babin. Right.
    Dr. Zuber. --you know, the electronic readers. And so this 
is addressed in the ATE program, which deals with community 
colleges, and it's also a focus of the National Science Board 
to look at these skilled technical workforces to look at what 
it's going to take to provide points of entry to students at 
various levels to get into these programs to get training and 
then to realize that there needs to be, you know, retraining 
and retraining--
    Mr. Babin. Right.
    Dr. Zuber. --to improve skills.
    Mr. Babin. Okay. I need to ask one more question, get it in 
before my time is expired. I saw on the news this past weekend 
that some American scientists were stranded in Antarctica when 
a U.S. vessel could not reach them. And fortunately, NSF, 
working with Argentina partners who had an icebreaker and a 
helicopter, were able to successfully rescue them. First, 
congratulation on the rescue; but second, it brings up whether 
or not the United States has sufficient icebreaking capacity. 
What is the status of NSF's efforts to ensure the continued 
availability of an icebreaker for our polar programs? Dr. 
Cordova?
    Dr. Cordova. Thank you. We have a number of vessels with 
different icebreaking capability. None with very deep 
icebreaking capability, so we rely on the U.S. Coast Guard for 
that. We lease time from them in order to help us to support 
our mission. I know that there is some funding to the Coast 
Guard, perhaps it's in the proposal stage, but I think there is 
some advanced funding for them to look into having more 
capability in this area.
    Our preferred mode is not to own a deep-ice-cutting 
vessel--and they're not research vessels, but they are for that 
purpose--but to keep renting them. And otherwise, we have, as I 
said, a number of actual research vessels that have very modest 
cutting capability. Thank you for mentioning that example. We 
are very happy that five researchers are fine.
    Mr. Babin. All right. My time is expired, Madam Chairman. 
Thank you. Thank you very much.
    Mrs. Comstock. Thank you.
    And I now recognize Mr. Beyer for five minutes.
    Mr. Beyer. Thank you, Madam Chair.
    I want to thank all of you for being willing to come into a 
public forum on the Ides of March. You're very brave.
    You know, the--with appropriate respect for the Chairman's 
criticisms of specific research awards, the elephant in the 
room is still the flat budget. You know, nine years in a row 
the structural--the steadily falling percentage of excellent 
projects approved, United States losing its global leadership 
to China and perhaps to others, you know, I think this is the 
most necessary oversight responsibility the Science Committee 
has is to keep American science strong, which means keeping the 
National Science Foundation strong.
    So, Dr. Zuber, a cultural question for you as Chair of the 
National Science Board. What can you do, what can we do, what 
should we be doing to build public support for additional 
federal funding for the National Science Foundation? Especially 
given that our lives are so transformed by the science that you 
have developed, why don't we value it? How do we increase that 
sense of value in our lives?
    Dr. Zuber. Yes, so I think--you know, so, first of all, 
thank you for those comments, and thank you for your support on 
this crucially important topic for the Nation. I think the 
Director and her team have taken great efforts to try to make 
the science that NSF does understandable broadly to people in 
the country, but there's still a lot to be learned. And I 
think--I frankly think that NSF is an underappreciated agency 
for what it does. So people have heard of the NIH because they 
know it does medical research, and people may have heard of the 
NSF, but they don't realize the--just the broad scope of 
science that it covers, everything from, you know, the polar 
science to high-energy physics, you know, to astrophysics, you 
know, to the earth sciences, biological sciences, and beyond.
    So one of the things that I say every time you see a NASA 
image of space that has a NASA logo in the center--and we 
encourage the NSF to start getting the word out of, you know, 
branding NSF. So when you--you know, when you go out and you 
have conversations with people and you let them know the kind 
of work that NSF does, you know, they generally seem broadly 
supportive, but the question is, you know, with all of the 
noise that we have around us today, how do you reach those 
people and get the message? And we're always looking for 
opportunities to do that.
    Mr. Beyer. It sounds like getting the most robust 
communications department would help.
    Dr. Zuber. Yes.
    Mr. Beyer. Maybe sponsor a NASCAR vehicle with NSF on the 
side.
    Dr. Zuber. Well, some of the videos that the Office of 
Legislative and Public Affairs have put together have been 
absolutely spectacular and have won national awards, and that's 
been very helpful.
    Mr. Beyer. There's an old political idiom that nothing 
happens in politics unless you tell somebody about it. This may 
be the same thing here.
    So on that line, this may be a dangerous suggestion, so 
forgive me for a dangerous suggestion, but it may make sense at 
some level to have a nonpartisan, nonideological person look at 
the grants one final time before they go out just to make sure 
that we don't put a Chairman, whether a Democrat or Republican 
Chairman, in the position of saying, ``That sure doesn't sound 
legitimate,'' you know, a nonscientific eye as something that's 
going to go out to the general public.
    Dr. Cordova. Largely because of this Committee I think we 
have really upped our transparency and accountability 
processes, and we're very sensitive to titles and abstracts 
because we--unlike many other agencies, we publish everything 
online, so it is really open and people can see immediately 
what it looks like. We have now a non-technical abstract, which 
is geared towards public consumption. We think that we have 
really improved our readability of what we're doing and also 
brought cognizance to the entire agency that people are looking 
and they're really evaluating the value of the benefit to the 
nation just on a few sentences that are there describing the 
research and its potential benefits. We have taken a lot of 
steps in that direction.
    As far as your suggestion of whom to have on the committees 
that finally approve that, I think that's an interesting 
suggestion and I will take it back and we'll consider it. Thank 
you.
    Mr. Beyer. All right. Thank you very much.
    Madam Chair, I yield back.
    Mrs. Comstock. Thank you. And I now recognize myself for 
five minutes.
    I think we earlier had some students from Paul VI High 
School. I don't know if we have any left, but I thank them for 
joining us.
    And I wanted to start out by thanking Dr. Cordova for your 
strong statement about zero tolerance for sexual harassment 
that you recently made in light of some of the things that this 
Committee, as well as others, have looked at. So as you may 
know, we had a hearing on sexual harassment in science, and 
sort of the role that some of the grants and people who really 
can determine your future in terms of whether you're going to 
get into the fields that you want, and how that's impacted 
because of harassment.
    And I was--I think we also--we didn't get into it as deep 
as we might, but I think it's something we do need to look at 
more, the long-term wage impact because we know that when women 
are harassed in a specific field, they are very likely to leave 
that field and not get back into it, particularly when you have 
some avenues here that if they're closed off, you may not have 
someplace else to go.
    I was wondering if you could just--in light of your very 
strong statement--I just wanted to give you the opportunity to 
address that, and maybe for the others, since we are blessed to 
have three women panelists here today, I thought it might be a 
good opportunity to hear directly from you.
    Dr. Cordova. Thank you very, very much Chairwoman Comstock, 
for your passion, your interest, for having the hearing, and of 
course we all listened to the hearing remotely, and it was very 
good to get it all out on the table. Some very, very important 
points were made.
    The important thing to recognize about our statement--and 
now, of course, our statement has turned into a notice in the 
Federal Register that is open for public comment for 60 days, 
and we will be absorbing all those comments as we go. We're not 
waiting to the end of the period, so we've already started 
that. We also have robust processes to send compliance team 
reviews to universities to say, ``Hey, are you doing what 
you're supposed to do?'' And we review their cases. The team 
talks with a lot of individuals at all levels of the university 
from the students to the administration and all, and that's----
    Mrs. Comstock. I was wondering, do we have percentages--and 
my apologies if I should know--what percentage of these grants 
and projects are female-led?
    Dr. Cordova. We can certainly find that out. I mean, I know 
we--well, for one thing, in--earlier, we talked a little bit 
about the merit--annual merit review report that the agency 
produces for the National Science Board, and there we have the 
proposals as a function of gender and also minorities' 
representation that are given to us in how many we approve, and 
so we can then make the assumption that if you're the lead 
investigator, that you are also leading the research.
    So yes, we have the statistics, and actually women do very 
well. I think about one percentage point higher success rate 
than male gender.
    Mrs. Comstock. All right. And, Dr. Zuber?
    Dr. Zuber. Yes, so if I could just add, so the National 
Science Board fully supported the Director in wanting to get 
out ahead of this issue, and we're particularly--there was a 
lot of discussion about this, but we were incredibly supportive 
of the fact that it's very, very important to have due process, 
but if a university has a process and an investigation takes 
place where it's--enough evidence is deemed that it goes to a 
full-out investigation, that it needs to be reported to NSF. 
And this is because it might make sense to get a substitute 
principal investigator in there, and this is to really, you 
know, care about the personal situation of the person who has 
been experiencing the harassment.
    We consider this to be a real step forward, and NSF as an 
agency has really taken the lead on this. And what I hope is 
other agencies I think are also looking at policies, and I hope 
we don't get a different policy for every agency. I hope that--
you know, I personally think that the NSF policy--it's very 
thought-out because, you know, the Director had a great deal of 
experience unfortunately in dealing with issues like this in--
you know, on panels and such that have made recommendations 
throughout her career. And--but it would be very cumbersome if 
all the agencies just came up with different ways of dealing 
with it.
    Dr. Cordova. And can I say one more thing? This is only the 
beginning for us, that we are having biweekly meetings that Dr. 
Ferrini-Mundy chairs within the agency to talk about what else 
we can do in this area, for example, codes of conduct at all 
our field sites, whether it's Antarctica or environmental field 
site, we have hundreds of them. And are all the codes of 
conduct all start with similar language? And then do they 
fulfill the basic needs, namely that if something happens at a 
field site, that you know exactly what is to be posted in an 
open, public place where to go, how to get help, and how to 
follow through.
    We are just consistently going to keep working on this 
until we're satisfied that we have done everything we can, and 
we're hoping that in the public comment period there will be 
even more suggestions about what else we might----
    Mrs. Comstock. So this information will be out there so the 
students, the young women themselves, will just have more of an 
awareness about it, where to go, how to proceed if something 
happens?
    So I know as we're talking about the pipeline, you know, I 
think this week I was at a STEM charter school, and they had a 
STEM club that had been started by the young girls there. Then 
they we're teaching the boys how to have one, too, so they had 
the first one.
    And fourth-graders, Coco and Miriam, who escorted me around 
their lab and told me about all their programs, it just was a 
real--I think we do have a different atmosphere going on in so 
many of our schools--these kids were showing me the first-
graders who were coding already, and you really don't see a 
difference at that age because the kids haven't learned to have 
any differences yet hopefully, and they had a lot of great role 
models like we have here.
    So just, you know, any way we can get that message through 
and then sustain it so that we are keeping that pipeline 
because it really did seem, as we went through the process of 
the hearing--and if you watched it, you saw it--but the wage 
gap could very much be a much bigger part connected to sexual 
harassment than we have recognized in the past. Okay. Well, I 
think I am up with my time but----
    Ms. Lofgren. Yes, I'll--it's playing cleanup here. It's 
been a delight to listen to all of you. And this is one of the 
most important agencies in the United States really, I mean, 
not always appreciated but driving innovation and allowing for 
really smart people to research and to lead us forward to 
better times.
    I think we're sort of at a very serious inflection point in 
our country, and you addressed some of the issues, are other 
nations competing more vigorously, the flat budget for multiple 
years, that with a flat budget, costs increase, you can buy 
less. I'm concerned--we have had--this is a figure I got from 
the Judiciary Committee staff--since 2015 a 40 percent drop in 
foreign students into the United States, which is not a piece 
of good news when it comes to science research. And so when you 
put that altogether, you've got--you know, we used to have 
where we were the center of science research, people from all 
over the world coming here, robust funding for science, and now 
a very different picture.
    So I have some very serious concerns. I know that you all 
are doing your very best to make the resources that have been 
made available go as far as they can. This is not a criticism 
of your fine efforts.
    One of the things I'm interested in, Dr. Cordova, is how 
many of the highest-rating--highest-rated proposals don't get 
funded? What's the sheer number, do you know?
    Dr. Cordova. It's almost $4 billion worth of proposals per 
year we say are on the cutting room floor. They are rated 
excellent, which is the top rating or very good to excellent. I 
would say excellent is about $2 billion, about half of that, 
the other $2 billion between very good and excellent, but 
definitely worthy of funding, and we are not able to fund them.
    Ms. Lofgren. At some point I remember George Miller, who 
spent so many years on our Education and Labor Committee, went 
over and read the proposals that couldn't be funded, and it put 
him into a depression for a while of all of the things we could 
have learned had we been able to actually award funding to the 
most meritorious proposals. I'd like at some point to see if we 
couldn't organize members of the Science Committee who have an 
interest to do that, take a look at what got left on the 
cutting room floor.
    And just a final comment, I think Congressman Beyer was 
mentioning having somebody look at a last cut as not 
scientists. Here's I think sometimes a problem. At least the 
scientists I know tend to be--you know, really smart people 
have great senses of humor, and you can have a very serious 
subject matter and a light touch on the title that may belie 
the seriousness of the inquiry. So it may be that the 
lighthearted titles may want a review because they could be 
misleading, and that's just the thought that I have because 
smart people do tend to have a great sense of humor.
    So with that, I'm going to close this hearing with these 
comments. I think we're very, very lucky as a nation to have 
all of you, the service that you are providing to our country. 
I'm grateful to you for it, and with that, Madam Chair, I yield 
back.
    Mrs. Comstock. Thank you. And I would second that again.
    And I thank the witnesses for their testimony and the 
Members for their questions. And the record will remain open 
for two weeks for additional written comments and written 
questions from Members. And the hearing is adjourned.
    [Whereupon, at 12:04 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                              
                              Appendix II

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
